No. 20-717

 

 

IN THE

Supreme Court of the United States

CONCERNED CITIZENS FOR NUCLEAR SAFETY, INC.,

Petitioner,
Vv.

UNITED STATES ENVIRONMENTAL PROTECTION AGENCY;
UNITED STATES DEPARTMENT OF ENERGY; TRIAD
NATIONAL SECURITY, LLC,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,219 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 27, 2021.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
